<html>
<title> - PIPELINE SAFETY OVERSIGHT AND LEGISLATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







               PIPELINE SAFETY OVERSIGHT AND LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2010

                               __________

                           Serial No. 111-159





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

78-136                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina     PARKER GRIFFITH, Alabama
CHARLIE MELANCON, Louisiana          ROBERT E. LATTA, Ohio
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       RALPH M. HALL, Texas
JAY INSLEE, Washington               FRED UPTON, Michigan
G.K. BUTTERFIELD, North Carolina     ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana          JOHN SHIMKUS, Illinois
BARON P. HILL, Indiana               JOHN B. SHADEGG, Arizona
DORIS O. MATSUI, California          STEVE BUYER, Indiana
JERRY McNERNEY, California           GREG WALDEN, Oregon
PETER WELCH, Vermont                 SUE WILKINS MYRICK, North Carolina
JOHN D. DINGELL, Michigan            JOHN SULLIVAN, Oklahoma
RICK BOUCHER, Virginia               MICHAEL C. BURGESS, Texas
FRANK PALLONE, Jr., New Jersey
ELIOT ENGEL, New York
GENE GREEN, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     4
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     4
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     5
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     6
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     9
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     9
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    11
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    13
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    13
Hon. Jim Matheson, a Representative in Congress from the State of 
  Utah, opening statement........................................    14
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, prepared statement..............................   131

                               Witnesses

Mark Schauer, a Representative in Congress from the State of 
  Michigan.......................................................    15
    Prepared statement...........................................    17
Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration................................    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   157
Christopher A. Hart, Vice Chairman, National Transportation 
  Safety Board...................................................    35
    Prepared statement...........................................    37
    Answers to submitted questions...............................   161
Stephen Wuori, Executive Vice President, Liquids Pipelines, 
  Enbridge Inc...................................................    49
    Prepared statement...........................................    52
Rick Kessler, Vice President, Pipeline Safety Trust..............    60
    Prepared statement...........................................    63
    Answers to submitted questions...............................   164
Donald F. Santa, Jr., President, Interstate Natural Gas 
  Association of America.........................................    79
    Prepared statement...........................................    81
Andrew Black, President, Association of Oil Pipe Lines...........    93
    Prepared statement...........................................    96
Lori Traweek, Senior Vice President and Chief Operative Officer, 
  American Gas Association.......................................   109
    Prepared statement...........................................   111
    Answers to submitted questions...............................   168

                           Submitted Material

Letter of December, 2009, from a consortium of Texas mayors, 
  submitted by Mr. Burgess.......................................   132
Statement of the American Public Gas Association, submitted by 
  Mr. Markey.....................................................   139
Letter of September 22, 2010, from the Sierra Club, et al., 
  submitted by Mr. Markey........................................   154

 
               PIPELINE SAFETY OVERSIGHT AND LEGISLATION

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2010

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2123, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the subcommittee] presiding.
    Present: Representatives Markey, Inslee, Butterfield, 
Matsui, McNerney, Dingell, Green, Harman, Matheson, Barrow, 
Upton, Stearns, Shimkus, Pitts, Burgess, Scalise, and Barton 
(ex officio).
    Staff Present: Greg Dotson, Chief Counsel, Energy and 
Environment; John Jimison, Senior Counsel; Jeff Baran, Counsel; 
Joel Beauvais, Counsel; Melissa Cheatham, Professional Staff 
Member; Caitlin Haberman, Special Assistant; Lindsay Vidal, 
Deputy Press Secretary; Mitchell Smiley, Special Assistant; 
Aaron Cutler, Minority Counsel; Andrea Spring, Minority 
Professional Staff; Peter Spencer, Minority Professional Staff; 
and Garrett Golding, Minority Legislative Analyst.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Welcome, ladies and gentlemen, to the 
Subcommittee on Energy and Environment and this very important 
hearing on pipeline safety oversight and legislation.
    This week marks the end of a summer of fossil fiascos for 
the U.S. oil and gas industry. From April to August the country 
watched with horror as the BP disaster unfolded, leaving 11 
workers dead and spilling nearly 5 million barrels of oil into 
the Gulf of Mexico.
    What has gone less noticed by many is a wave of major 
accidents during the same period on the country's aging oil and 
pipeline system.
    In June, a Chevron pipeline burst near Salt Lake City, 
spilling over 20,000 gallons of crude into a creek that feeds 
the Great Salt Lake.
    On July 26th, a pipeline owned by Enbridge ruptured near 
Marshall, Michigan, spewing nearly 1 million gallons of crude 
oil into Talmadge Creek and the Kalamazoo River. The oil 
ultimately was contained just 80 river miles from Lake 
Michigan, but only after doing massive damage to local 
communities and the environment.
    Earlier this month a PG&E natural gas pipeline exploded in 
the San Francisco suburb of San Bruno, leaving seven people 
dead or missing, destroying several dozen homes and damaging 
over 100 others.
    The very same day yet another Enbridge oil pipeline burst 
near Chicago, spilling over 250,000 gallons of crude.
    There are over 2.5 million miles of oil and natural gas 
pipelines in this country, many of them laid a half a century 
or more ago. Some of these pipes appear nearly as fossilized as 
the fuel they transport. This summer's tragic accidents 
underscore the potential danger they present if not properly 
maintained.
    Here, as with the BP disaster, it is critical that we 
unearth the causes of these accidents and hold the responsible 
parties fully accountable. Just as important, we must reexamine 
and strengthen our laws to ensure that accidents like these do 
not happen again. Now is the time for that discussion, as the 
Federal pipeline safety law is due for renewal this year, a 
duty that this committee and subcommittee shares with the 
Transportation and Infrastructure Committee. That is what 
today's hearing is about.
    We are grateful to have before us Congressman Mark Schauer 
in whose district the Marshall spill occurred. He has been 
heavily involved in response to the Marshall spill. He is also 
the lead sponsor of H.R. 6008, the Corporate Liability and 
Emergency Accident Notification, or CLEAN Act, a bipartisan 
pipeline safety bill cosponsored by our ranking member, Fred 
Upton from the State of Michigan, and others that the House 
will vote upon today.
    We will hear from the head of the Pipeline and Hazardous 
Materials Safety Administration, the Federal agency in charge 
of pipeline safety regulation, about the recent accidents and 
the Obama administration's proposal to strengthen the Federal 
pipeline safety law.
    We also welcome the Vice Chairman of the National 
Transportation Safety Board, which is responsible for 
investigating the recent accidents in Michigan, California, and 
elsewhere.
    We will hear from Steve Wuori, the man in charge of 
Enbridge's pipeline operations and its response to the Marshall 
and Romeoville spills. In addition to these two accidents 
Enbridge has had over 160 pipeline incidents since 2002. 
Enbridge has had over 200--over 160 pipeline incidents since 
2002 and was recently fined $2.4 million for a 2007 accidents 
in which two workers were killed. I trust that the subcommittee 
will have many questions for Mr. Wuori.
    Finally, we will hear from the Pipeline Safety Trust, which 
seeks to improve pipeline safety and from the three major trade 
associations representing pipeline owners.
    I look forward to the testimony of our distinguished 
witnesses. I thank all of the members for their participation. 
I now turn to recognize the ranking member of the subcommittee, 
the gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. I appreciate having 
this hearing today, which perhaps will be the last of this 
Congress, so we will see.
    Pipeline safety is an issue that is certainly important to 
every community in our country. The U.S. currently has over 
200,000 miles of oil pipelines and 260,000 miles of natural gas 
pipelines, an often unseen underground labyrinth that allows 
our communities to function and prosper. The safety security 
and integrity of this infrastructure is of the highest 
importance to our Nation and certainly worthy of this 
committee's oversight. Unfortunately, as southwest Michigan 
recently found out firsthand, communities cannot fully 
appreciate the importance of pipeline safety until something 
goes wrong, and in our case it was an 800,000-gallon pipeline 
leak.
    We are still waiting on answers. It is vital that we 
receive the answers promptly from the Department of 
Transportation's Pipeline and Hazardous Materials Safety 
Administration, as well as Enbridge, regarding the Michigan 
spill. We must continue to work aggressively to ensure that 
there are no delays at the Federal level.
    Thankfully, the emergency response was swift and decisive. 
Our local emergency responders and volunteers certainly stepped 
up to the plate, and I commend them on the wonderful job that 
they continue to do.
    Pipelines are the arteries of our Nation's energy 
infrastructure. Through our hundreds of thousands of miles of 
pipelines we transport the energy that fuels our economy, heats 
our homes, and powers our daily lives. Unfortunately, recent 
accidents have thrust this vital infrastructure into the 
headlines for the wrong reasons and perhaps highlighted the 
need for safety reassessments.
    Given the vast size of our pipeline system and the limited 
resources at our disposal, it is imperative that safety 
inspections and regulations are as efficient and as productive 
as possible.
    While today's hearing is rightly focused on oversight 
issues, attention should also be given to allocating these 
finite resources in a more cost effective and efficient manner 
to assure that we maximize our safety efforts.
    Legislation has to be sensible and improve safety rather 
than impose arbitrary mandates that sometimes increase costs 
and only creates the appearance of safety.
    As we are not too long away from adjournment, I hope an 
issue as important as PHMSA reauthorization goes through the 
regular and proper order rather than being jammed through a 
lame duck session which may only be a day or two.
    This committee does have a vital role to play in the 
legislative process. This issue is certainly worthy of more 
than just one hearing. Just ask the folks in southwest 
Michigan. They will tell to you get the job done right to 
protect our communities.
    Again, pipeline safety is an important bipartisan issue, 
and I look forward to hearing from or witnesses today on the 
issues. I yield back the balance of my time.
    Mr. Markey. I thank the gentleman very much. We recognize 
the gentleman from Washington State, Mr. Inslee, for an opening 
statement.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. One of the great painful things is 
to see these tragedies repeated. We had a horrendous incident 
in Bellingham, Washington on June 10, 1999, where a pipeline 
explosion killed three young men, and I got to know the 
families quite well and they were courageous people who helped 
Congress fashion at least one approach to try to improve 
pipeline safety. So to continue to see other families suffer 
from the failure of the industry to adequately inspect and 
maintain the lines is deeply painful.
    I think the frequency of these events clearly call on us to 
review additional action. I will just mention two things that I 
think we ought to at least listen to people about, and that is 
the rate and type of inspections in non-dense, non-urban areas, 
which still can be dangerous; second, whether there are 
additional types of testing that we ought to be talking about.
    During our original debate in 2000 and later than that we 
talked about the benefits of hydrostatic testing, to actually 
exposing pipelines to pressure with water in them that can be a 
built-in suspenders approach. I think this is something we have 
to consider.
    Thank you, Mr. Chair.
    Mr. Markey. I thank the gentleman. The chair recognizes the 
gentleman from Texas, Mr. Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman, and thank you for 
having the hearing today. It is certainly an important one for 
this committee to hold.
    For several months we have actually watched as other 
committees held hearing after hearing on pipeline safety, 
chipping away at the jurisdiction that rightfully belongs in 
this committee. Pipeline safety is a matter of energy policy, 
and it is crucial to what we do here.
    The events in Michigan and California have been tragic 
reminders that safely maintaining our Nation's energy 
infrastructure is an ongoing process and we must be diligent in 
protecting the lives in and around those pipelines.
    It is true in many areas of the country, including my 
backyard in north Texas, civilization is encroaching on 
pipelines just as pipelines are encroaching on civilization. 
Homes are being built closer and closer to the infrastructure 
that was laid decades ago in what used to be rural areas. Now 
the population has increased and urban density is forcing 
people to move further and further into the country, and 
pipelines that were once miles from anywhere are suddenly right 
beneath residents' backyards.
    More and more people require natural gas. It is one of the 
cleaner fuels on the market. And more pipelines and 
infrastructure will be needed to meet that demand. What is not 
clear how to best move forward with regulating this increased 
infrastructure.
    Some on this committee are calling for new Federal 
regulations as we revise and reauthorize the existing pipeline 
statute. Certainly that might be required, but investigations 
into the pipeline explosions are still months from being 
completed, and perhaps they will have some useful data to share 
with us at some point and perhaps we should look at that.
    We see this time and again with this committee. We never 
let a crisis go to waste, but not all regulations need to be at 
the Federal level. A consortium of mayors in my district 
collaborated on a pipeline best practices guideline. Mr. 
Chairman, I would like unanimous consent to insert into the 
record--
    Mr. Markey. Without objection, it will be so included.
    Mr. Burgess. --the pipeline best practices developed by the 
mayors of Denton and Dish, Texas, Argyle and Bartonville.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. We don't want to be continuing to study a 
problem when another crisis occurs. But we are also obligated 
to get the correct regulations.
    So, Mr. Chairman, I am glad we are here today. We need to 
be looking into what is causing these explosions. Is it just a 
coincidence that the incidents have occurred within a short 
span of each other or is there a fundamental flaw in how we 
monitor and design our pipelines? We need firm answers to 
questions like these in order to best know how to move forward 
with balancing our need for increased clean energy with the 
health and lives of those who live so close to the energy 
infrastructure.
    I thank you for the courtesy and I will yield back the 
balance of my time.
    Mr. Markey. The gentleman's time is expired. The chair 
recognizes the gentleman from North Carolina, Mr. Butterfield.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you. I too want to thank you for 
convening this very important hearing and thank the witnesses 
for their testimony today.
    Mr. Chairman, I am going to talk as quickly as I can. We 
just got notice that we may be having votes in just a few 
minutes.
    Let me extend my sympathies to the families of those who 
lost their lives in San Bruno in the pipeline explosion. It was 
a terrible tragedy by any estimation. Hopefully it will focus 
our discussion and make us more exact in the pursuit of good 
policy.
    In addition to the San Bruno PG&E explosion, the two 
Enbridge spills this year certainly demands this body's 
attention. This is an issue that effects nearly every Member of 
this body as the millions of miles of pipeline in this country 
are literally in our constituents' backyards. We have a 
responsibility to guarantee that the rules that these companies 
operate under are sufficiently crafted to maintain the 
integrity and safety of the pipelines and to protect our 
communities from environmental disaster or even death.
    I am particularly interested in the testimony of the 
Administrator. The latest incident suggests the pipeline safety 
program is in need of serious attention. I look forward to her 
suggestions on how to improve this program.
    I yield back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Pennsylvania, Mr. Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this important hearing on pipeline safety oversight and related 
legislation.
    Like all of us, I believe that it is critical to ensure the 
safety and security of our Nation's pipelines. The tragic 
events in San Bruno, California, and the Enbridge incident 
highlight the high stakes and potential consequences of the 
faulty lines.
    In my congressional district there are several natural gas 
pipelines that run through beautiful countryside and in close 
proximity to neighborhoods. It is of the utmost importance to 
me that these pipelines are functioning safely and effectively.
    The safety of the 2\1/2\ million miles of natural gas and 
hazardous liquids pipelines in the United States is overseen by 
the Pipeline and Hazardous Materials Safety Administration. The 
pipeline safety statute, which is generally reauthorized every 
4 years, is up for consideration this year. Clearly ensuring 
the safety of our pipelines is a bipartisan issue, and I want 
to work with my colleagues on the other side of the aisle on 
prudent regulations. We need clear regulations and robust 
safety standards.
    Before we legislate I think it is important to first learn 
the facts about what happened in California and Michigan so we 
know what steps to take. We want to ensure that we are 
prudently legislating and addressing issues that will 
contribute to reliable and secure pipelines which deliver their 
products to American households and businesses every day.
    I look forward to hearing from our witnesses today, and 
thank you and yield back.
    Mr. Markey. We thank the gentleman. The chair recognizes 
the chairman emeritus of the Energy and Commerce Committee, the 
gentleman from Michigan, Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, thank you for your courtesy and 
thank you for holding this hearing today.
    Pipeline safety is a most serious issue, and I commend you 
for your attention to this matter. This has been a matter of 
concern to this committee for a long time. For years pipeline 
safety was largely disregarded by the executive branch no 
matter who happened to control that particular part of our 
government, and it was only after this committee interested 
itself very vigorously in these matters that the matter began 
to be set aright.
    If my colleagues will remember, we had a number of years of 
difficulty during which this committee had a vigorous duel with 
the industry to see to it that we finally came to something 
that would in fact assure the necessary protections to the 
American public.
    Pipeline failure can take many forms. It can be an 
explosion that comes close to reminding one of an atom bomb, or 
it can be a slow leak, or it can be something which pollutes 
and contaminates our waters and our lands. It can have an 
enormously destructive effect to humans, wildlife, the 
environment, and indeed to all the things that we care about.
    I am particularly pleased that our good friend and 
colleague, Mr. Schauer, is here before us today. He is an 
extremely valuable member of the Michigan delegation and serves 
Michigan Seventh Congressional District just to the west of the 
district that I have the honor to serve. He serves his district 
with distinction and honor and has particular concern about the 
events associated with pipeline failure because of the enormous 
consequences that a recent failure has had in his district.
    I also would like to welcome an old friend of mine, former 
member of the staff of this committee, our good friend Rick 
Kessler, who, as many will remember, used to staff this 
committee on these very issues.
    In late July, Enbridge's pipeline known as 6B ruptured just 
south of Marshall, Michigan. The end result of the rupture was 
the release of nearly a million gallons of crude oil, which 
flowed into the Kalamazoo River, a tributary of Lake Michigan.
    Again, on September 9th Enbridge reported a second pipeline 
spill, this time in Illinois. This time 256,000 gallons of oil 
were released before the pipeline was shut down. On the same 
day a natural gas pipeline operator by PG&E exploded in San 
Bruno, California. Like far too many pipeline explosions over 
the years, this one saw the tragic loss of life.
    I have spent much time over the years on this issue of 
pipeline safety. We, and I mean this committee, have made 
tremendous improvements, and we have been able to do so in a 
bipartisan manner. I am pleased to be a cosponsor of Mr. 
Schauer's bill, which is scheduled for floor consideration on 
the suspension calendar today. This legislation moves the ball 
forward some more.
    The common sense legislation does three simple and 
necessary things: One, a company must report a leak within an 
hour of discovery; two, increases fines for failure to report; 
three, requires DOT to maintain a searchable database of all 
reportable accidents and incidents involving hazardous liquids. 
I think we should strongly support this legislation, but I want 
to make it clear it is no replacement for reauthorization and 
reform of the Pipeline Safety Act.
    I am still concerned about the historically lax enforcement 
by the Pipeline and Hazardous Safety Material Administration. I 
look forward to hearing from PHMSA about their actions with 
regard to the aforementioned incidents.
    The Department recently released a draft proposal for 
reauthorization. It is quite possible this is a good starting 
point, but it is also something which must be carefully 
scrutinized to see whether it meets the needs of the country.
    As currently goes on, only about 7 percent of natural gas 
pipelines are subject to integrity management programs that 
this committee put in place in 2002, clearly insufficient. The 
administration draft does nothing to address this matter. The 
granting of waivers remains all too real a possibility. The 
draft lacks sufficient improvements to the matter of 
inspections and repairs. It does nothing to address the issues 
that we should have dealt with years ago, including remote 
shut-off valves for natural gas and making pipelines more able 
to accommodate smart pigs, which is still the best technology 
for addressing the question of pipeline safety.
    I look forward to hearing from our witnesses today, Mr. 
Chairman, and I look forward to working with you and my 
colleagues on the committee for reauthorization that will make 
further needed and significant improvements to the law. Thank 
you, Mr. Chairman.
    Mr. Markey. We thank the gentleman. The chair recognizes 
the gentlelady from California, Ms. Matsui.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman. Thank you for calling 
today's hearing, and I would also like to thank the witnesses 
for appearing before us today.
    The recent explosion that devastated the San Bruno 
neighborhood captured the Nation's attention. It was hardly the 
first tragedy involving a PG&E natural gas pipeline in northern 
California. I want to express my sympathy to the families of 
those who lost their lives, their homes, and the many who were 
injured.
    I will never forget being alerted on Christmas Eve 2008 
about another natural gas pipeline leak that caused an 
explosion and a fire in Rancho Cordova, California that killed 
one of my constituents Wilbert Pena and hospitalized five 
others.
    As the NTSB and the California Public Utilities Commission 
continue their investigations into the cause of the San Bruno 
incident, it is critical that we ensure that the pipeline 
safety program protects consumers and meets the needs of our 
Nation's energy requirements. Failure to take the necessary 
steps to do so will significantly endanger our public health 
and our economy.
    As oversight of pipeline safety and security continues, we 
should question the manner in which safety corresponds with 
ongoing efforts to secure the nearly half a million miles of 
oil and natural gas transmission pipeline nationwide and other 
infrastructure. It is also important that we examine the 
effectiveness of existing regulatory authorities and the 
current pipeline safety regulations and enforcement mechanisms.
    This committee is well positioned to scrutinize these 
matters and has already received a proposal from the 
administration suggesting ways in which we might address them.
    I look forward to hearing from the panelists today and 
working with the committee's stakeholders on these important 
endeavors. I thank you, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Markey. Thank you. We thank the gentlelady. The chair 
recognizes the gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. I will waive for questions, Mr. Chairman.
    Mr. Markey. The chair recognizes the gentleman from 
Florida, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman, and thank Ranking 
Member Upton for calling this important hearing, examining the 
recent oil and gas pipeline accidents in Michigan an California 
as well as the pipeline safety legislation that is being 
proposed by the Obama administration.
    The development and distribution of our oil and natural gas 
resources is vital to our economy, and transporting these fuels 
through pipelines remains the safest means of distribution to 
families and businesses throughout this country. However, 
recent pipeline failures have highlighted a catastrophic effect 
a release can have on a community and the environment.
    In July, Enbridge reported the rupture of a 30-inch 
pipeline resulting in the release of 800,000 to 1 million 
gallons of oil that contaminated nearby creeks and rivers 
before being contained.
    Enbridge also reported a second incident on September 9th, 
which they estimated released over 256,000 gallons of oil 
before the pipeline was shut down. On the same day a 30-inch 
natural gas pipeline operated by PG&E exploded in San Bruno, 
California, resulting in a fire that took the lives of at least 
seven people and injured dozens more.
    In all three cases the National Transportation Safety Board 
has instigated a safety investigation to determine what went 
wrong. The investigators have stated it could take up to 18 
months for a full report to be released. So I believe we owe it 
to the families and those killed in the explosions and those 
affected by the Enbridge leaks to fully understand what caused 
the leaks and how best to mitigate the risk of another 
disaster. Proceeding with legislation without all the facts 
will only serve to give a false sense of security to anyone who 
lives near an oil or natural gas pipeline without addressing 
the actual causes of these disasters.
    So, Mr. Chairman, thank you for calling this hearing. I 
look forward to the testimony from the witnesses.
    Mr. Markey. We thank the gentleman. The chair recognizes 
the gentleman from California, Mr. McNerney.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Well, thank you, Mr. Chairman, for convening 
today's hearing.
    Everyone from California was shocked and saddened by the 
tragedies at San Bruno, and our thoughts and prayers are with 
the victims and their families. I am closely monitoring the 
ongoing response efforts and will hold all parties accountable 
for any actions or omissions that contributed to this horrible 
accident.
    Today's hearing is an important opportunity to investigate 
the causes of this and similar disasters and how we can prevent 
this kind of occurrence from happening again. I am grateful for 
the opportunity to hear from today's witnesses and evaluate 
legislative proposals that could improve the safety of 
pipelines.
    I commend Representative Schauer for working across party 
lines to develop the CLEAN Act, and I also thank Ranking Member 
Upton for his commitment to a bipartisan process on this 
matter.
    I also hope to hear from today's witnesses about the 
evaluation, about their evaluation of the administration's 
proposal to reauthorize pipeline safety regulation legislation. 
We should closely analyze this proposal and continue working in 
a bipartisan fashion to achieve a high quality reauthorization 
bill.
    With that, Mr. Chairman, I yield back.
    Mr. Markey. I thank the gentleman. The chair recognizes the 
ranking member of the full committee, the gentleman from Texas, 
Mr. Barton.
    Mr. Barton. Thank you, Chairman. I am going to put my 
statement in the record and just say that we appreciate you 
holding this hearing. It is very important.
    We have historically operated in a bipartisan fashion on 
the reauthorization of the Pipeline Safety Act, and I hope that 
this is not an exception.
    I want to give special recognition to one of our witnesses, 
Andy Black, who used to work for the committee, and before that 
worked for me on my personal staff. He is one of our witnesses 
this afternoon and we welcome the hearing and welcome hopefully 
a bipartisan effort to reauthorize a very important piece of 
legislation.
    [The prepared statement of Mr. Barton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Markey. We thank the gentleman very much, and one of my 
former staffers, William Meyer, is out in the audience. I would 
like to recognize him. And any of the other members that want 
to recognize anyone who used to work for them out in the 
audience, I think you should be able to do that as well.
    Let me turn now and recognize the gentleman from Texas, Mr. 
Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I have no former 
staffers in the audience as I can tell. I want to thank you for 
holding the hearing today and I welcome our three panels. I 
appreciate the opportunity to discuss this important issue, in 
particular Congressman Schauer's H.R. 6008, the Corporate 
Liability Emergency Accident Notification Act, and the 
administration's legislative proposal for reauthorization of 
the pipeline safety statute that was presented to Congress last 
week.
    The recent leaks in Michigan, Illinois, and then the tragic 
explosion in San Bruno, California, remind us of the importance 
of maintaining a safe pipeline system, and my thoughts and 
prayers go out to the families and friends of those tragically 
lost in San Bruno.
    As we consider these proposals, I ask we keep in mind that 
transporting our fuels through pipelines is the safest, most 
reliable, economically and environmentally friendly way to 
transport fuels. Our job and Nation's job, industry's job is to 
ensure that this transport is as safe as it can be, and we all 
agree that one leak is one leak too many.
    I am concerned that it has taken three accidents for 
Congress and the administration to look at this important 
issue, even with the current law up for the reauthorization. As 
such, we are now in a situation where we are moving to deal 
with very serious legislation such a few short legislative 
weeks, all the while investigation results on three leaks are 
still coming in.
    I appreciate the comments from our panelists on both these 
proposals and then their take on the status of our pipeline 
infrastructure at large.
    I come from an area where I have lived along pipeline 
easements literally my whole life, and it is part of our life 
in my area, and so we take pipeline safety very seriously in 
our community.
    Again thank you, Mr. Chairman. I look forward to the 
testimony of our witnesses.
    Mr. Markey. We thank the gentleman. The chair recognizes 
the gentleman from Louisiana, Mr. Scalise.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman.
    First, I would like to also extend my deepest condolences 
to the families and friends of those who lost their lives in 
California as a result of the explosion in San Bruno.
    I appreciate the opportunity to discuss the important issue 
of pipeline safety today. I look forward to hearing the panel 
and welcome our colleague from Michigan.
    In my home State of Louisiana, tens of thousands of miles 
of pipeline crisscross throughout the State and provide 
critical energy resources, not just to Louisianians but also to 
the rest of the country.
    While transport by pipe is still the safest way to get our 
energy supplies from one place to another, it is imperative 
that we continuously review and improve our inspection systems 
and work with industry officials at all levels of government to 
keep our communities safe from accidents.
    I am committed to working with my colleagues to ensure that 
strong inspection and enforcement laws are on the books as we 
consider the reauthorization of our pipeline safety laws. 
However, as we consider reauthorization and as we continue to 
investigate the causes of both the San Bruno explosion and 
Enbridge incident in Michigan, we must be very deliberate to 
make sure that any changes we make to current laws actually 
improve safety, and we must avoid acting hastily on changes 
that may leave us more vulnerable to accidents and disasters.
    Of course, in my home State of Louisiana we are 
experiencing this directly. As a supposed answer to the BP oil 
explosion in the Gulf of Mexico, the President came and put an 
arbitrary ban on all Outer Continental Shelf drilling, which 
actually, according to the President's own scientists, reduces 
safety of drilling in the Gulf and actually leaves us more 
vulnerable to oil leaks because 70 percent of all the leaks of 
oil come from oil that is imported on tankers. And so that was 
a bad policy, that was a wrong reaction to the tragic disaster 
in our State, and hopefully as we move forward we do it in a 
much smarter way that actually addresses the problem.
    So thank you. I look forward to hearing from the panel, and 
I yield back.
    Mr. Markey. We thank the gentleman. Our final opening 
statement is from the congressman from Utah, Mr. Matheson.

  OPENING STATEMENT OF HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Thank you, Mr. Chairman. I will be brief. I 
know we have votes coming up on the floor.
    The tragedy in the Gulf and these recent series of oil and 
natural gas pipeline accidents are unfortunate reminders that 
we always need to be vigilant in oversight of our energy 
infrastructure in this country and we should always be 
evaluating the effectiveness of our current safety laws and 
regulations.
    The incident in Utah when a Chevron pipeline burst in Salt 
Lake City ultimately leaked 33,000 gallons of oil into Red 
Butte Creek, which runs through downtown Salt Lake and 
eventually empties in the Great Salt Lake. In this case 
fortunately no lives were lost and the oil was basically 
contained before it get to the Great Salt Lake. But it raises 
similar questions to a number of these recent accidents 
referred to in the hearing that need to be addressed.
    Right now the cause of the Salt Lake leak that has been 
reported in the press is that a tree branch fell during a heavy 
windstorm, hit a power line, which created an electric arc, 
which hit a metal fence post, and that fence post happened to 
be driven into the ground just inches away from the oil 
pipeline. The electrical arc burned a small hole in the pipe 
through which the oil leaked. So this raised an important 
question, why was a fence post within inches of the pipeline?
    In addition, it appeared that the monitoring equipment on 
the pipeline failed to indicate there was a leak for several 
hours after the leak started, and the first time Chevron was 
aware of the leak was when the Salt Lake City Fire Department 
called them the next day. This raises an important question 
about how effective pipeline monitoring equipment is.
    Now the final report on the cause of the Salt Lake leak has 
yet to be completed by PHMSA, so I won't press for those 
details, but do I hope the Administrator can speak later in 
this hearing to the general investigation process and whether 
questions related to over pipeline integrity, adequacy of 
current pipeline inspections and how thorough industry is being 
in their pipeline integrity plans will be addressed in the 
report and reports on the accidents in Michigan, Illinois, and 
California, if it turns out some of the factors contributing to 
the leaks are poor pipeline integrity management plans, 
inadequate pipeline patrol and inspections, particularly in 
high population areas, and faulty leak detection equipment, and 
I look forward to working with my colleagues to ensure the 
steps are taken to resolve these issues through pipeline safety 
reauthorization.
    Mr. Chairman, with that I will yield back.
    Mr. Markey. We thank the gentleman very much. That 
completes all time for opening statements of members.
    Now, Congressman Schauer, you are our opening witness, but 
there are only 5 minutes left to go before the roll call is on 
the floor. We give you the option. You can give us your 
condensed kind of 3-minute summary or you can come back and do 
the more extended version. I leave it up to you.
    We recognize then Congressman Mark Schauer, within whose 
district the Enbridge spill occurred. Since July he has been a 
leader on the legislation, along with Mr. Upton, to deal with 
that catastrophe. We yield to you 3 minutes.

    STATEMENT OF THE HON. MARK SCHAUER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Schauer. Thank you, Mr. Chairman, Ranking Member Upton, 
all members of the subcommittee.
    Enbridge Energy Partners is the largest oil pipeline 
company in North America; 286 miles of its lakehead system 
flows through Michigan through Line 6B.
    On July 15th, 2010, 10 days before this incident occurred 
in Marshall, Michigan, their Vice President told the 
Transportation and Infrastructure Pipelines and Hazardous 
Materials Subcommittee that their response time for release in 
incidents can be almost instantaneous, and our large leaks are 
typically detected by our control center personnel.
    You will hear from the NTSB, they will walk you through 
timeline. Thirteen hours of alarms were occurring in Edmonton, 
Alberta, at their control center. Their leak detection system 
failed. Finally, after 911 calls in the local community on the 
gas odor, 11:00 a.m. The next morning another local utility 
company informed Enbridge that heavy crude oil was leaking into 
Talmadge Creek. Soon after Enbridge began lowering boom in 
Talmadge Creek, but it took almost 2 hours later before the 
National Response Center was called.
    Every second counts in an incident like this, and nearly 1 
million gallons of heavy crude oil was spilled into the 
Kalamazoo River.
    My good friend and colleague, your ranking member knows 
full well and can explain the fear of this oil heading to a 
lake which is an EPA Superfund site with PCBs. The cause of 
this spill, a 6-1/2 foot tear in a 41-year old carbon steel 
pipe, 30 inches in diameter.
    This incident should never have occurred. Since 2007 
Enbridge has been aware of 390 anomalies; 329 went unfixed. 
That is unacceptable. That is what regulation will hopefully 
fix.
    In the remaining time let me touch on the CLEAN Act. This 
bill would clarify the congressional intent of the term 
``immediately'' in the reporting requirements of a spill 
incident to the National Response Center. The CLEAN Act will 
define ``immediately'' as no more than 1 hour after the 
discovery of an incident. The CLEAN Act will also increase 
current fines if a spill is not reported immediately to the 
National Response Center.
    Additionally, my bill seeks to increase transparency by 
directing the U.S. Department of Transportation to create a 
searchable public database of all reportable hazardous liquid 
incidents.
    Mr. Chairman and Ranking Member Upton and members of the 
subcommittee, thank you for holding this hearing. It is my 
sincere hope that with proper standards and oversight for 
pipeline inspections and repairs, leak detection and spill 
reporting, we can work toward preventing such devastating 
spills and protect the safety of our communities and our 
environment.
    Thank you.
    [The prepared statement of Mr. Schauer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Markey. Thank you, Congressman Schauer, for your 
historic work. You and Congressman Upton have demonstrated 
bipartisanship at its highest level in the production of this 
legislation. We thank you for your testimony.
    We are going to stand in recess while we cast these 5 votes 
on the House floor and then we will come back to hear from our 
witnesses. The subcommittee stands in recess.
    [Recess.]
    Mr. Markey. Welcome back to the Subcommittee on Energy and 
Environment.
    Our next witness is Cynthia Quarterman. Ms. Quarterman is 
the Administrator for the Pipeline and Hazardous Materials 
Safety Administration, also known as PHMSA. Got that, everybody 
listening? You are going to hear PHMSA for the next hour or so. 
So that is the Administrator for Pipeline and Hazardous 
Materials Safety Administration, PHMSA.
    Prior to her nomination, Ms. Quarterman was a partner in 
the law firm of Steptoe & Johnson and a member of the Obama 
administration transition team at the Department of Energy. We 
welcome you, Administrator Quarterman. Whenever you feel ready, 
please begin.

 STATEMENTS OF THE HON. CYNTHIA L. QUARTERMAN, ADMINISTRATOR, 
PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION; AND THE 
       HON. CHRISTOPHER A. HART, VICE CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

          STATEMENT OF THE HON. CYNTHIA L. QUARTERMAN

    Ms. Quarterman. Thank you. Chairman Markey, Ranking Member 
Upton and Members of the Committee, thank you for the 
opportunity to appear today and discuss the oversight 
responsibilities of the United States Department of 
Transportation's Pipeline and Hazardous Materials Safety 
Administration and the Obama administration's legislative 
proposal for the Department's pipeline safety program.
    Before I discuss these topics, I would like to extend my 
sincere condolences to the families of all of those whose lives 
were forever changed by the September 9th Pacific Gas & 
Electric pipeline failure in San Bruno, California.
    Last week I joined PHMSA investigators on the scene in San 
Bruno, supporting the efforts of the NTSB and the California 
Public Utility Commission. I saw firsthand the devastating 
impact this incident is having on that community. Incidents 
such as this and the recent oil pipeline failure in Marshall, 
Michigan, must not happen.
    As the sole Federal agency with regulatory oversight for 
the safety of pipelines, we must do our part to keep 
communities free of risk and exposure to pipeline failures and 
enhance public confidence in the safety of the Nation's energy 
pipelines. To ensure safety is not only the Department's top 
priority, but also the top priority of those we regulate.
    Secretary LaHood unveiled a legislative proposal last week 
that would strengthen the Department's regulatory oversight 
capabilities for pipelines. The proposal is designed to hold 
all operators accountable for operating their pipelines in a 
safe and environmentally sound manner.
    Among other things, the proposal would ways the maximum 
penalty for the most serious violations from $1 million to $2.5 
million. It would authorize 40 additional Federal inspection 
enforcement experts over the next 4 years. The legislative 
proposal will also complement additional regulatory initiatives 
under development to continue to improve pipeline safety.
    Specifically, PHMSA is considering identifying additional 
areas along pipelines that should receive extra protection; 
establishing minimum requirements for point-to-point leak 
detection systems for all pipelines; and requiring the 
installation of emergency flow restricting devices that would 
isolate leaking pipeline sections, minimizing the amount of 
product released, among other initiatives.
    Mr. Chairman, ensuring the safety and reliability of the 
Nation's hazardous liquid and natural gas pipeline network is 
an enormous task. The recent pipeline failures in California 
and Michigan show that prompt passage of this legislation is 
more important than ever.
    The Department and PHMSA look forward to working closely 
with you and the other members of the subcommittee to ensure 
the Nation's pipeline network is safe, reliable, and subject to 
the most stringent oversight feasible.
    Thank you. I will be pleased to answer any questions you 
might have.
    [The prepared statement of Ms. Quarterman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Markey. Thank you very much.
    Our next witness is Christopher Hart, who is the Vice 
Chairman of the National Transportation Safety Board, which 
will be known henceforth as the NTSB, not to be confused with 
PHMSA, for those who are watching on C-SPAN.
    He served as Deputy Administrator of the National Highway 
Traffic Safety Administration, Deputy Director for Air Traffic 
Safety Oversight at the FAA and has had a very distinguished 
career.
    Mr. Hart, we welcome you. Whenever you feel comfortable, 
please begin.

                STATEMENT OF CHRISTOPHER A. HART

    Mr. Hart. Thank you. Chairman Markey, Ranking Member Upton, 
members of the subcommittee, I join in also thanking you for 
the opportunity to address you today on the reauthorization of 
the United States Department of Transportation's Pipeline and 
Hazardous Materials Safety Administration, or PHMSA.
    I would start, on behalf of NTSB, to express our 
condolences as well to the friends and families of those who 
suffered in these incidents we will be speaking about.
    As you know, the National Transportation Safety Board 
investigates accidents to determine the probable cause and 
makes recommendations to prevent recurrences, and some of those 
recommendations go to regulatory agencies such as PHMSA. So 
thank you for inviting us today to talk about our 
recommendation history with PHMSA.
    PHMSA has made significant improvements in the past 5 
years, many of which have been guided by the Pipeline Safety 
Improvement Act of 2002 and the PIPES Act of 2006. In addition, 
they have been fairly responsive to the Safety Board's 
recommendations. In particular, since 2002 we have issued 24 
recommendations to PHMSA, and only nine of those remain open 
and only one from prior to 2002.
    Their more notable accomplishments in recent years include 
Integrity Management Program regulations for various types of 
pipelines, regulations for improved education among regional 
emergency response agencies and the public, and implementation 
of the 811 One-Call System for excavation.
    We do have some remaining concerns, however; for example, 
regulation of low stress pipelines. Our bottom line is that 
regulations should be based primarily upon the level of risk 
that the pipeline poses to the public and to the environment. 
PHMSA has made some good progress in recent rulemakings in that 
direction, but there are still many types of pipelines that are 
not addressed and not regulated that pose risk that are 
comparable to pipelines that are regulated.
    In addition, the integrity management programs, there 
already are integrity management programs for transmission 
lines, but the PIPES Act expands that to include distributions 
lines, and that requires some different techniques and we are 
looking at some of those different techniques. Also, one of the 
things that is important to that is excess flow valves. We had 
an example in nearby South Riding, Virginia in 1998 regarding a 
gas pipeline explosion in a residence due to not having any 
excess flow valve. So the PIPES mandates excess flow valves for 
single family residences, but we recommend that it also apply 
to apartments, other multifamily dwellings, and commercial 
properties.
    And last but not least, the oversight of integrity 
management programs, we think it is very good that operators 
have flexibility and responsibility to develop their own 
integrity management programs because one size doesn't 
necessarily fit all, but what that does is it creates an 
enormous responsibility for the operator to scrutinize whether 
the program is effective, identify areas where it is not 
sufficiently effective and needs improvement, and implement 
corrections.
    PHMSA, on the other hand, must determine that operators are 
implementing and correcting the programs as needed. So it is a 
good system, but it imposes huge responsibilities on both the 
operators and PHMSA, and we have examples where that process 
broke down.
    In Kingman, Kansas, it broke down because the operator 
didn't include the leak history in prioritizing which pipelines 
to inspect. We have other examples in Carmichael, Mississippi, 
in 2007 and in Palm City, Florida, in 2009 where the process 
broke down. So that is very important as to keep that process 
going.
    Since June, the Safety Board has been involved in 
investigating four pipeline accidents, and you have already 
heard reference to all of them. Two weeks ago, the 30-inch 
natural gas transmission pipeline exploded in San Bruno, 
California, killing at least seven and destroying many of the 
surrounding homes. I accompanied our investigators to San Bruno 
as the Board member on the scene.
    The 28-foot section of pipe that you see in this picture 
was thrown 100 feet from where it was buried in the ground. We 
have transported that section here to D.C. where it will be 
tested in the metallurgy labs. The other picture you see is the 
pipe underground from which that pipe was blown.
    Also in this month, a crude oil pipeline operated by 
Enbridge ruptured in Romeoville, Illinois, and we have begun to 
investigate that event. And the previous event in July, the 
reason it got as much attention as it did was because of the 
previous event in July of the same company, a 30-inch diameter 
crude oil pipeline also operated by Enbridge that ruptured in 
Marshall, Michigan, that we are hearing about much today that 
spilled as much as 1 million gallons of oil into the Talmadge 
Creek and the Kalamazoo River. So pipe sections from both of 
those are also transported to D.C.
    So while our investigations are still underway we expect 
that they may focus on several areas that we will look at, the 
control of the pipeline, the pipeline operators, the 
notification after the emergency, the response, a number of 
areas that we will be looking at.
    So we have had a good relationship, working relationship 
with PHMSA. They are generally responsive to our 
recommendations. We look forward to working with them in 
addressing these areas of concern that I have mentioned.
    Thank you, and I would be pleased to take any questions.
    [The prepared statement of Mr. Hart follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Markey. Thank you, Mr. Hart, very much. I ask unanimous 
consent to include in the record a statement from the American 
Public Gas Association and a letter from the Sierra Club and 
other environmental organizations. Without objection, so 
ordered. And I ask unanimous consent that all members have 5 
days to include in the record their opening statements which 
they might not have had an opportunity to make this afternoon.
    [The information appears at the conclusion of the hearing.]
    Mr. Markey. The chair now recognizes himself for a round of 
questions.
    Vice Chairman Hart, is the NTSB investigating whether there 
were any alarms or other indications of a problem in Enbridge's 
Line 6B prior to 5:58 p.m. on July 25?
    Mr. Hart. Yes, we are looking in great detail at the 
timeline because that is an important aspect of our 
investigations, how quickly did the operator become aware of 
the problem and how quickly did they respond to the problem. 
That one is perhaps partially complicated by the fact that the 
pipeline was in the course of a scheduled shutdown at the time, 
and that may complicate the detection and response. But we are 
looking at that issue in great detail.
    Mr. Markey. Vice Chairman Hart, it has been reported that 
PG&E's gas line that ruptured in San Bruno, California, was 
unusual in that it had a longitudinal seam and numerous wells, 
indicating that it was made from multiple smaller sections of 
pipe.
    What is the potential significance of this fact, and what 
do we know about how common this type of pipe may be in PG&E 
and other pipe systems?
    Mr. Hart. The piece of pipe that was shipped back to D.C. 
is a piece of pipe that contains those multiple sections you 
are talking about. It appears that there were multiple sections 
because the pipe was negotiating a curve at that point and the 
multiple sections are the slightly slanted sections that were 
welded together to negotiate that curve. So that is one of the 
things we will be looking at in the metallurgy lab is to look 
to see whether those wells were compromised in the course of 
this event.
    Mr. Markey. Thank you.
    Administrator Quarterman, some industry groups are lobbying 
against H.R. 6008, the bipartisan CLEAN Act sponsored by 
Representative Schauer and Ranking Member Upton. They say that 
the bill would require pipeline operators to report a spill 
based on just the rumor of a spill, but the bill only requires 
reporting within 1 hour of the discovery of the spill.
    Aren't they misleading Members of Congress about what this 
bill does?
    Ms. Quarterman. Mr. Chairman, in the body of my written 
testimony, you will see that the administration is supporting 
the CLEAN Act and it is consistent with our current 
requirements that we be notified about an incident or the NRC 
be notified within an hour or two of the discovery of an 
incident.
    Mr. Markey. Administrator Quarterman, in the case of the 
Marshall spill, nearly 20 hours went by between the time when 
Enbridge received the first alarm on its system and when it 
discovered and reported the leak. I recognize that you can't 
speak to the Enbridge spill specifically. But isn't it clear 
that we need to establish mandatory standards to improve leak 
detection now? Will you commit to promulgating such standards 
within the next year?
    Ms. Quarterman. Mr. Chairman, I mentioned in my opening 
statement that the administration in complement to the piece of 
legislation that was offered is working on a regulatory 
proposal, an Advanced Notice of Proposed Rulemaking, which we 
hope to have out within the next few days that addresses 
several questions to leak detection issues.
    I think one question that we will be asking is whether we 
should put in place a particular standard that all companies 
have to meet across the Board. Currently, it is subject to the 
discretion of the individual companies to determine what the 
appropriate leak detection system is. We want to put in place a 
hard standard.
    Mr. Markey. Administrator Quarterman, it seems to me like 
simple common sense that your agency should retain and make 
public the oil spill response plans that pipeline operators are 
required to prepare. Why doesn't the agency do that now? And 
are you going to commit to changing that as soon as possible?
    Ms. Quarterman. We do retain copies of the oil spill 
response plans. They have not been made public for no 
particular reason. I think they have probably not been made 
public because there hasn't been much of a request for it. We 
certainly have no problems with providing those publicly.
    Mr. Markey. And they will be retained?
    Ms. Quarterman. And they will be retained, yes.
    Mr. Markey. The industry groups testifying today have 
argued against extending integrity management requirements 
beyond high consequence areas limited to population centers and 
ecological reserves.
    Isn't it true that spills outside of high consequence areas 
can and do have serious impacts on human health and the 
environment?
    Ms. Quarterman. Of course they do. In our legislative 
proposal, there is a provision that we should do a report about 
what the next steps should be with respect to the integrity 
management rule and in specific how it is dealt with with 
respect to high consequence areas. In addition to that, in our 
regulatory initiative, we will be asking questions about 
whether the definition of a high consequence area is adequate, 
and as well as whether or not the repair criteria that are in 
place for the high consequence area should be extended to all 
areas that have been subject to an inspection.
    Mr. Markey. And finally, the industry groups testifying 
today have argued against the administration's proposal to 
eliminate the blanket regulatory exemption for gathering lines. 
Can you expand on why you are seeking to gain authority, to 
regulate at least some subset of gathering lines?
    Ms. Quarterman. Well, I think it is important for the 
public to know that all pipelines, hazardous liquid pipelines 
that exist in this country are subject to someone's regulatory 
authority. Right now there are primarily two exceptions or 
exemptions in the law. One is for production-related facilities 
or refinery facilities. And those are being regulated by 
different entities.
    With respect to gathering lines, some of them may be 
regulated. Some of them may not. We want to ensure that we know 
that those lines are subject to somebody's authority.
    Mr. Markey. Okay. Thank you. And what percentage of 
pipeline incidents caused by excavation are caused by State or 
local agencies or railroads that are exempt from ``call before 
you dig'' requirements?
    Ms. Quarterman. That number I will have to get for you. I 
don't know it off the top of my head.
    Mr. Markey. We would appreciate that. The chair's time has 
expired. I will turn and recognize the ranking member, Mr. 
Upton.
    Mr. Upton. Thank you, Mr. Chairman. Thank you both for 
testifying. And although we didn't get to ask our colleague Mr. 
Schauer questions, it was certainly an issue that he and I 
worked on, shoulder to shoulder on, both in July and August to 
try to do all that we could to minimize the damage. As I said 
in my opening statement, we had a great response by our local 
people and they really did work together. There was a true fear 
that this would spill into a man-made lake and disturb a large 
PCB-filled lake and, even worse, get into Lake Michigan. So 
every minute really did count. I know that a little bit later 
this afternoon his bill was going to be on the House floor.
    So just really, really quickly, you support the bill that 
is going to be on the House floor this afternoon. Do you think 
that it is feasible that, in fact, when there is a spill within 
an hour that they can in fact make that notification?
    Ms. Quarterman. Yes. The administration does support the 
bill. We believe that they should be able to make it within an 
hour or provide some rational justification for why they were 
unable to do so.
    As I mentioned earlier, we do require, subject to the 
safety advisory, that they respond within an hour or two.
    Mr. Upton. Mr. Hart, do you accept that? I mean, do you 
believe that they--companies within an hour should be able to 
make that call?
    Mr. Hart. We look at that question with respect to each 
specific event and determine what appears to be appropriate 
with respect to each event, and we are doing that in these 
events.
    Mr. Upton. The last question that I have is that back in 
the early nineties, the Congress took up major oil spill 
legislation as it related to responses. I was actually then a 
member of the Transportation Committee. As part of the effort, 
I was put on the conference committee and fought successfully 
to have an oil spill response team for the Great Lakes. At the 
time we had a major oil spill on a tanker over in Bay City, Jim 
Barcia, a former colleague, it was in his district, and a 
tanker pulled off the moorings and there was a major spill on 
that side of the State.
    As we look at this spill, you know, anything that involves 
particularly a waterway, do you feel that because of the 
legislation not only for the Great Lakes but around the country 
that, in fact, there are the appropriate amounts of boom and 
other material to address situations like this in the future, 
if in fact they happen? As we did this particular scene, I was 
in touch with the Coast Guard and with EPA, and they were 
terrific in terms of getting the right sized boom and 
everything there that they thought everything--but what is your 
sense as it relates to the rest of the country in terms of the 
inventory of boom in case something happens, period?
    Ms. Quarterman. PHMSA is not responsible for----
    Mr. Upton. I know EPA is.
    Ms. Quarterman. EPA is, yes. And I don't have a survey of 
the amount of boom across the country.
    Mr. Upton. Might we be able to get that? Would you be able 
to get that and then give it to us for the record?
    Ms. Quarterman. I am certain that we can follow up on that 
issue. If we know the answer ourselves, we can follow up with 
our sister agencies.
    Mr. Upton. Thank you. I yield back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Vermont.
    Mr. Welch. Thank you, Mr. Chairman.
    Mr. Markey. Well, with the thanks of the committee, we will 
be submitting additional questions to the two of you and your 
agencies, and we would very much appreciate prompt responses. 
We thank you for your service.
    Mr. Hart. Thank you.
    Mr. Markey. This panel is completed. So let's turn to the 
next panel, if we may. And that is a panel that will begin with 
Mr. Stephen Wuori, who is the Executive Vice President of 
Liquids Pipelines at Enbridge Incorporated.
    Enbridge operates the longest pipeline system in the world. 
Mr. Wuori is responsible for all of Enbridge's crude oil and 
liquids pipeline operations in North America. He has over 27 
years of experience with Enbridge, including 20 years in the 
liquids pipeline business.
    Mr. Wuori, whenever you feel comfortable, please begin.

STATEMENTS OF STEPHEN WUORI, EXECUTIVE VICE PRESIDENT, LIQUIDS 
    PIPELINES, ENBRIDGE INC.; RICK KESSLER, VICE PRESIDENT, 
    PIPELINE SAFETY TRUST; DONALD F. SANTA, JR., PRESIDENT, 
 INTERSTATE NATURAL GAS ASSOCIATION OF AMERICA; ANDREW BLACK, 
  PRESIDENT, ASSOCIATION OF OIL PIPE LINES; AND LORI TRAWEEK, 
SENIOR VICE PRESIDENT AND CHIEF OPERATIVE OFFICER, AMERICAN GAS 
                          ASSOCIATION

                   STATEMENT OF STEPHEN WUORI

    Mr. Wuori. Mr. Chairman, Ranking Member Upton, and members 
of the subcommittee, thank you for the opportunity to discuss 
Enbridge's approach to pipeline safety.
    Mr. Chairman, I want to be absolutely clear, no spill is 
acceptable to Enbridge. Enbridge operates the largest and most 
complex liquids pipeline system in the world, and we are 
committed to upholding the highest standards for pipeline 
safety and integrity. For that reason, we invest heavily in 
pipeline integrity and safety management.
    Our central mission is to assure that our pipeline networks 
have the strength and operating fitness to perform safely, 
reliably, and in an environmentally responsible manner.
    I am proud to say that we have approximately 2,200 
employees in the United States, and we deliver about 12 percent 
of the total daily imports of crude oil into the U.S., 
delivering more crude each day than any other country or 
jurisdiction, including Venezuela and Saudi Arabia.
    Even though we built our business in the transportation of 
oil and gas, we are also investing heavily in green energy, 
including seven wind farms, a hybrid fuel cell system, and 
North America's largest photovoltaic solar facility. Through 
our neutral footprint initiative, we are seeking to grow our 
business without increasing our impact on the environment; and 
therefore, we intend to plant a tree for every tree we remove, 
conserve an acre of land for every acre we permanently impact, 
and produce a kilowatt of green energy for each kilowatt of 
energy that we use to power our operations.
    With respect to Line 6B in Michigan, we have taken full 
responsibility for cleaning up the spill and addressing all 
impacts on the environment, on the individuals and on the 
businesses in the Marshall, Battle Creek, and surrounding area.
    Congressman Upton, we recognize that this incident has been 
a very high priority for you. You earlier reflected on the 
cooperation with the local agencies, and we have experienced 
tremendous cooperation with our company, and I want to take 
this opportunity to extend my thanks to all of those agencies 
for the cooperation that we have received. Thanks to the 
dedication of all personnel involved in the response, including 
the 500 Michigan residents we put to work, the spill was 
quickly contained and we are now well on our way to remediating 
it. As a native of Michigan myself, I understand the importance 
of the affected waterways.
    Upon first notification of the release of oil on July 26, 
the pipeline was isolated. Crews began installing containment 
boom that is stored in Marshall, and response teams from our 
regional offices throughout North America arrived that day. Our 
CEO, Pat Daniel, and I arrived that evening, and we have been 
based in Marshall since that time.
    We mobilized as quickly as we could so that anyone affected 
would have housing and medical care at our expense. We provided 
direct assistance for prepaid hotel stays, equipment and 
services, and we reimbursed individuals for cost of living and 
other expenses. We also established a home purchase program to 
help assure affected homeowners that their property values will 
not go down as a result of the spill.
    Mr. Chairman, our intention from day one has been to assure 
that the people and businesses impacted by the incident are 
made whole. We acted in good faith to establish a claims 
settlement process that is simple, fast, and fair. But when 
questions were raised, we engaged former Michigan Supreme Court 
Justice Dennis Archer to examine our process and make 
recommendations for improvements, if needed. Justice Archer's 
review is underway.
    With respect to the cleanup in Marshall and Battle Creek, 
effective August 10, the Environmental Protection Agency 
announced that the emergency phase of the incident was over, 
and by next week we will have completed the bulk of the 
cleanup. We received PHMSA approval for our restart plan last 
evening, and we now anticipate that we will meet the restart 
plan requirements and return Line 6B to service on Monday 
morning, September 27, subject to receipt of final PHMSA 
approval.
    With respect to Line 6A in Romeoville, Illinois, we focused 
on rapid cleanup of the spill and addressing the needs of 
affected residents and businesses. The pipeline was shut down 
immediately after Enbridge was notified on September 9. Repairs 
were completed and the line was safely returned to normal 
service on September 17. The NTSB is investigating, as you have 
heard, the cause of the leak and also a separate rupture of a 
water main directly underneath our pipeline. NTSB has reported 
that both pipes had been punctured.
    Mr. Chairman and Mr. Upton, I want to reiterate that for 
Enbridge, no spill is acceptable. We understand that we must 
hold ourselves accountable and to the highest standards of 
openness and care in all the communities where we operate. We 
have been serving America's energy needs for 60 years, and we 
intend to continue to be a good neighbor for many decades to 
come.
    Thank you again for providing us this opportunity to share 
our perspective.
    [The prepared statement of Mr. Wuori follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Welch [presiding]. Thank you very much.
    And our next witness is Rick Kessler, Vice President of the 
Pipeline Safety Trust, a nonprofit organization well known to 
the committee. Mr. Kessler is well known to the committee, 
having served as Chief of Staff to Chairman Emeritus Dingell. 
Sorry he is not here, but that is quite a recommendation around 
here.
    He currently serves as President of Dow Lohnes Government 
Strategies. And welcome, Mr. Kessler. We look forward to your 
testimony.

                   STATEMENT OF RICK KESSLER

    Mr. Kessler. Thank you, Mr. Welch, and thank you, Ranking 
Member Upton. As you have just heard, I am Rick Kessler, and I 
am here in my purely voluntary and uncompensated role as the 
Vice President of the Pipeline Safety Trust.
    My experience with pipeline safety stems from my years as a 
staff of this committee on such issues, starting in 1994 after 
a natural gas explosion in Edison, New Jersey, all too similar 
to what just occurred in California. It destroyed the whole 
apartment complex, left one person dead and many people 
homeless.
    The events of the last 2 months, the Enbridge pipeline 
environmental catastrophe in Michigan that made houses 
uninhabitable and, more recently, the devastation and tragedy 
brought about by the PG&E explosion in San Bruno, drive home 
the need for significant comprehensive changes to our pipeline 
safety laws as part of any reauthorization.
    Transporting fuels through pipelines is without a doubt the 
safest way to move these highly dangerous substances, but the 
question isn't whether pipelines are a safe mode of 
transportation. It is whether they are as safe as they could 
and should be and whether they are being regulated in a manner 
that is efficient, effective, and protective. Unfortunately, 
the answer to both questions is no.
    You have asked the Trust to comment on two legislative 
proposals currently before the committee, H.R. 6008, the CLEAN 
Act, and the reauthorization proposal released last week by the 
Obama administration.
    It is our understanding that Mr. Schauer, Ranking Member 
Upton, and others introduced H.R. 6008 in response to the 
Enbridge pipeline accident that affected both their districts. 
The bill's main provisions require pipeline owners and 
operators to notify the Secretary and the National Response 
Center within 1 hour of discovering a hazardous liquid or 
natural gas leak. It would not expand the category of leak 
required to be reported nor require a leaking line be shut 
down, as some have erroneously asserted. Rather, it merely 
directs releases that are required to be reported today be 
reported more quickly in the future, no more than an hour from 
when they are first discovered by the pipeline operator.
    The second major provision in the bill raises the cap on 
civil penalties, and we applaud the increase but caution that 
it is not a panacea.
    The CLEAN Act's third major provision requires the 
Secretary to establish a database of all reportable incidents. 
While PHMSA already makes incident data of this sort available 
for download, we think this provision would be a step forward 
if the intent is that PHMSA makes such information available in 
a more user-friendly format on their Web site.
    Of course, the CLEAN Act isn't intended to be a vehicle for 
full scale reauthorization. It is a narrowly crafted but useful 
step forward to address a number of issues raised by the recent 
accidents, and we support it as such. We hope, however, the 
bill is amended to require enhanced leak detection on pipelines 
and urge you to include such a reasonable provision in the bill 
or in any reauthorization package.
    Last week, the Obama administration released a draft 
pipeline safety reauthorization proposal. Had this 12-page bill 
been unveiled a year ago, it might have been a nice first step 
on the long road to reauthorization. However, coming as it has 
on the heels of major catastrophic accidents and with only a 
short time left to reauthorize the act, the only way to 
characterize it is too little, too late.
    Certainly there are positive provisions in the bill, 
including increased staffing and funding for PHMSA. The bill 
also takes baby steps towards regulating gathering lines by 
removing the provision in the law that prohibits PHMSA from 
acting in this area. However, even this is flawed because it 
requires no further regulatory action.
    Also, the bill would merely study expansion of integrity 
management in high consequence areas, but doesn't expand 
inspections beyond the 7 percent of natural gas transmission 
lines covered by the 2002 act, nor does it address the quality 
of those inspections or the repairs made in their wake. One 
generally positive development is the administration's proposed 
changes to the overly broad provisions of the existing law 
dealing with waivers.
    The last time I appeared here, I stated the Trust's support 
for the sensible use of waivers so long as certain commonsense 
standards were put into place to protect public health and the 
environment. Section 10 of the administration proposal 
addresses some of our concerns by imposing higher standards for 
waiver applicants, time limiting the duration of a waiver, 
explicitly requiring PHMSA to recover processing costs, and 
directly authorizing the Secretary to revoke waiver for cause.
    Ultimately, as I indicated earlier, the problem of this 
proposal has little to do with what is in it but rather what is 
not in it. For instance, there is little or nothing to do in 
the proposal that would address issues raised by the Michigan 
and California incidents or the many other accidents that have 
occurred during the same period.
    The good news is that with significant additions, this 
proposal could be part of the kind of bipartisan, proactive 
reauthorization package that emerged from this committee in 
both 2002 and 2006. Such a package must address, in addition to 
the things I previously mentioned, expanding the miles of 
pipelines that fall under integrity management, making more 
pipeline safety information publicly available, requiring a 
remote or automatic shutoff valves for gas transmission, and 
emergency flow restrictions devices on hazardous liquid 
pipelines, enhanced requirements for accommodating internal 
inspection devices, or smart pigs, and a number of other 
equally important issues raised in my written testimony.
    I see I am running out of time. I just want to thank you 
again for this opportunity to testify and note that over the 
last decade this committee has proven to be a bipartisan 
bastion of common sense in the realm of protecting the public 
and the environment from unsafe pipelines. We urge the 
committee to continue its leadership role on the issue and look 
forward to working with you in the future.
    [The prepared statement of Mr. Kessler follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Welch. Thank you, Mr. Kessler.
    Our next witness, Mr. Santa, President of Interstate 
Natural Gas Association of America. Previously I understand you 
served as Commissioner at the Federal Energy Regulatory 
Commission and have also served as Majority Counsel to the U.S. 
Senate Committee on Energy and Natural Resources. We around 
here think that is a little bit of a demotion compared to Mr. 
Kessler. But thank you for joining us. When you are ready, 
please begin.

               STATEMENT OF DONALD F. SANTA, JR.

    Mr. Santa. Thank you, Mr. Welch and Ranking Member Upton, 
for the opportunity to appear here today on behalf of the 
Interstate Natural Gas Association of America, or INGAA. INGAA 
represents the interstate natural gas pipeline industry, and it 
also is INGAA's members that operate the natural gas 
transmission pipelines, the interstate pipelines that are 
subject to the Pipeline Safety Act and direct regulation by 
PHMSA. There also are interstate--intrastate, excuse me, 
natural gas transmission lines that are subject to the Pipeline 
Safety Act but are typically regulated by State agencies.
    On behalf of INGAA and its members, we would like to 
express our condolences to those who have suffered a loss as a 
result of the tragic San Bruno accident. Clearly we need to 
discover the facts and the causes of that accident, and we 
pledge to work on effective solutions as a result of those 
lessons to improve pipeline safety.
    The first point that I would like to make to the 
subcommittee is that transmission pipelines are very safe 
compared to other modes of transportation and energy delivery. 
This is borne out by the Department of Transportation Bureau of 
Transportation Statistics Figures. Interstate pipelines 
typically are buried and in remote locations. Fatalities and 
injuries to the general public from pipeline accidents are 
rare, as is damage to public property. Still, protection of the 
public in highly populated areas is and always has been a high 
priority in the pipeline safety programs. Over the past 10 
complete years--that is 2000 through 2009--excavation damage is 
the leading cause of serious pipeline accidents; that is, the 
accidents that cause a fatality or an injury.
    Detailed statistics from PHMSA are included in INGAA's 
written testimony, and I would note that these statistics do 
not include the 2010 accidents. Those are the two excavation 
accidents on intrastate pipelines in Texas and the San Bruno 
accident.
    The second point I would like to emphasize is that the 
Integrity Management Program, or IMP, has made the natural gas 
transmission pipeline network safety. Protection of the public 
from the risk of pipeline accidents has always been a priority, 
and the IMP program was preceded by the class location system 
that required an extra measure of safety in urban areas.
    The IMP program, mandated by the Congress in the Pipeline 
Safety Improvement Act of 2002, is modeled on industry best 
practices that preceded that standardized program. This program 
has produced significant results. IMP requires integrity 
management inspections of natural gas transmission pipelines 
located in close proximity to population centers. These are 
referred to as high consequence areas, or HCAs. All HCAs must 
be inspected in 10 years by the end of 2012 and all must be 
reinspected within 7 years of that baseline assessment. We are 
now over three-quarters of the way through those baseline 
assessments and over 19,000 miles of pipelines within HCAs have 
been inspected. As a result of those inspections, over 3,000 
repairs have been performed to address actionable anomalies.
    Pipelines are now beginning the reinspection of segments 
that were inspected early in the program. It is noteworthy that 
the rate of actionable anomalies being discovered in these 
reinspections is far lower than what was discovered during the 
baseline assessments. I would also note that over 90 percent of 
the assessments being performed by INGAA members are being done 
using inline inspection devices. That is smart pigs.
    Still, it is a cause for concern that the San Bruno 
accident occurred in a high consequence area that is covered by 
the IMP program. We need to understand the root cause of that 
accident, what it tells us about the effectiveness of the IMP 
program in that case, and what lessons should we apply to other 
similarly situated pipelines.
    Finally, with regard to the IMP program, many recent 
stories have emphasized the point that only 7 percent of the 
transmission pipeline mileage in the U.S. is being inspected. 
Let me respond.
    First, the industry and the regulator are doing exactly 
what the Congress directed. The emphasis of the program is to 
focus on highly populated areas where the consequences to the 
public from a pipeline accident would be the greatest.
    Second, IMP is but one layer of a multifaceted pipeline 
safety program that covers everything from pipeline design and 
construction to pipeline operation and maintenance to control 
room operators. And in addition, integrity management is just 
one kind of inspection.
    Third, as a practical consequence of the logistics and 
economics of operating inline inspection tools, much greater 
mileage has been inspected with these tools than just the 
mileage in HCAs. Compared to the mileage inspected within HCAs 
under the program, seven times more mileage has been inspected 
outside of HCAs during the same period and this has been 
reported to PHMSA, and any actionable anomalies discovered in 
these non-HCA pipelines have been repaired.
    Mr. Chairman, I see that I am running out of time here. My 
written statement includes INGAA's positions on both the 
administration's draft reauthorization bill and the CLEAN Act, 
and in the interest of time I will conclude my remarks now and 
look forward to your questions.
    [The prepared statement of Mr. Santa follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Welch. Thank you very much. Our next witness is Andrew 
Black, President of the Association of Oil Pipelines. Like Mr. 
Kessler, Mr. Black is also known to the committee, having 
served as the Republican Deputy Staff Director of Policy for 
the committee. Welcome. And Mr. Black has also served as the 
Director of the Office of External Affairs for the Federal 
Energy Regulatory Commission and Director of Federal Government 
Relations for the El Paso Corporation.
    Mr. Black, welcome.

                   STATEMENT OF ANDREW BLACK

    Mr. Black. Thank you, Mr. Chairman. Congressman Upton, it 
is good to be back. I am Andy Black, President and CEO of the 
Association of Oil Pipe Lines. I appreciate the opportunity to 
appear on behalf of AOPL and API. I will discuss the oil 
pipeline industry's commitment to safety, our improved safety 
record, and the importance of improving damage prevention 
programs in pipeline safety reauthorization legislation.
    Pipelines are the safest way to move crude oil and refined 
petroleum products, such as gasoline, diesel fuel, jet fuel, 
home heating oil, and propane. A reminder of the strong safety 
record of pipelines may seem discordant in the aftermath of a 
pipeline accident, but it must be kept in perspective. 
Pipelines are also the most reliable, economical, and 
environmentally favorable way to move these fuels. Pipeline 
operators have every incentive to invest in safety. Most 
important is the potential for injury to members of the public, 
employees, contractors. Operators could also incur costly 
repairs, cleanups, litigation and fines in the event of 
accidents. And the pipeline may not be able to accommodate 
customers, losing the business use of the pipeline asset if the 
facility needs to be shut down.
    Operators face a rigorous set of Federal Government 
requirements for construction, operation, and maintenance of a 
pipeline. Regulations also cover public awareness, reporting, 
design standards, operational controls, pressure testing, 
maintenance standards, qualification of personnel, emergency 
response and more. While we do not know the cause of the major 
recent pipeline accidents, it is important to note that laws 
and regulations already address the leading causes of pipeline 
failures, including corrosion, excavation damage, materials and 
equipment failure, and operations.
    This industry had a wakeup call after a fatal incident in 
1999 that Mr. Inslee described earlier. Congress and the Office 
of Pipeline Safety asked more of pipelines, and pipelines 
answered the call. As a result of new laws and regulations and 
vigorous industry efforts, liquid pipeline spills along rights-
of-way have decreased over the past decade in terms of both the 
number of spills and the volume of product released. Each of 
the major causes of pipeline accidents also showed decreases 
during this time period, reflecting the successes of multiple 
different strategies to manage risk. We are proud of this 
improved record, but we are not content. We still strive for 
zero accidents.
    Operators invest millions of dollars annually to maintain 
their pipelines and comply with Federal pipeline safety laws 
and regulations. In one recent survey, liquid pipeline 
operators representing three-fourths of U.S. mileage reported 
spending approximately $2.7 billion on integrity management 
activities in the past 6 years. These costs will only increase 
as integrity management tools become more expensive, more 
sophisticated, and more effective at identifying issues for 
pipeline operators to address.
    Operators work hard to learn lessons from pipeline 
incidents and share ideas for improvement and best practices 
throughout the industry. The industry has standing teams and 
workshops to discuss integrity management issues, review 
incidents, analyze data, and make recommendations to 
executives. The industry invests in research and development at 
the company and consortium level to develop new technologies 
and practices to confront pipeline challenges.
    As attention turns to reauthorization of the pipeline 
safety laws, we ask for the help of Congress to protect 
pipelines from excavation damage. Third party damage is less 
frequent today but still accounts for 31 percent of all 
significant liquid pipeline accidents, the leading cause.
    In some States, State laws requiring the use of the 811 
``call before you dig'' number do not exist, are weak or 
inadequate, or are not adequately enforced. Some State 
agencies, municipalities, and other local entities are exempted 
from requirements to use the One-Call System. These exemptions 
create a gap in enforcement and in safety because the threat of 
pipeline damage is the same, regardless of who the excavator 
is. The Office of Pipeline safety can close the gap by 
exercising One-Call civil enforcement authority granted by 
Congress in 2006. They can conduct enforcement proceedings for 
a One-Call violation within the boundaries of a State if the 
Secretary has determined that a State's enforcement is 
inadequate to protect safety.
    We urge OPS to complete their rulemaking to implement this 
authority, and we encourage Congress or OPS to require 
termination of these exemptions by the States or risk Federal 
enforcement and loss of grant funds.
    We continue to study the recent pipeline safety proposal by 
the administration. Although there is much we do not oppose, I 
note significant concerns with two provisions. First, we oppose 
the proposal to create a fee for OPS inspections of pipeline 
construction. OPS has long had construction-related authority 
and their activities had long been paid for by pipeline user 
fees for decades. We see no reason for the new fee, which will 
ultimately increase costs passed on to consumers.
    Secondly, we oppose a proposal to transfer a regulation of 
certain gathering lines from States and other Federal agencies 
to the OPS. Gathering lines gather crude to be sent to 
processing facilities. They are small pipelines in areas where 
crude oil is produced. They are often not large enough to 
accommodate smart pigs. They are local, with local effects and 
not transportation lines. This regulatory framework has not 
failed under the oversight of EPA or other Federal agencies and 
the States.
    Moving to H.R. 6008, pipeline operators certainly support 
prompt notification to the National Response Center of a 
pipeline release. We support the intent of the bill. We do not 
oppose the bill and are not lobbying against it in its current 
form. We recommend additions to the bill that would eliminate a 
rigid volume reporting rule that can cause a pipeline to 
hesitate before notifying the government of a release. We will 
also stand on guard against changes that might mistakenly 
increase the potential for false alarm notifications just to 
comply with an arbitrary deadline.
    Congress has provided OPS with a thorough set of tools to 
regulate pipeline safety. They are an aggressive regulator 
conducting rigorous inspections and vigorously enforcing 
compliance. We lament the recent accidents and have sent 
condolences to those who are affected but see no reason to 
greatly expand the pipeline safety program.
    Thank you.
    [The prepared statement of Mr. Black follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Welch. Thank you very much. And our final witness is 
Lori Traweek, Senior Vice President and Chief Operating Officer 
at the American Gas Association. Ms. Traweek's experience 
includes work as an offshore and onshore engineer for ARCO Oil 
and Gas Company in Texas and Louisiana.
    Welcome. We look forward to your testimony.

                   STATEMENT OF LORI TRAWEEK

    Ms. Traweek. Thank you very much, Mr. Chairman. The 
advantage of going last is that I will be able to reiterate 
much of what you have heard this afternoon.
    My name is Lori Traweek, Senior Vice President and Chief 
Operating Officer at the American Gas Association. We represent 
195 energy utilities that distribute natural gas throughout the 
country.
    Our hearts also go out to those who are suffering, who lost 
loved ones, homes as a result of the tragic San Bruno accident.
    No incident is acceptable. Every incident is one incident 
too many. As I speak, senior executives and safety leaders from 
around the country working at natural gas utilities are now in 
Boston at the fourth annual AGA Executive Safety Leadership 
Summit. They are there to discuss employee safety, public 
safety, contractor safety, and customer safety. Not 
surprisingly, this year, San Bruno and the tragedy there is a 
focus of those conversations.
    We hold these best practices forums and exchange because 
first and foremost, the industry's goal is safely reliably and 
efficiently delivering natural gas to the more than 70 million 
customers in the United States who rely on this fuel for their 
energy needs. When there is a tragic incident like this, 
similar to Congress, the regulators, the public, we too want to 
determine what could have been done to prevent the incident and 
then take appropriate actions to prevent a recurrence.
    Until the NTSB has concluded its investigation, however, it 
is best we not speculate about the causes of the accident and 
possible solutions. Any speculation could result in ineffective 
or unnecessary reactions. While the cause of the incident is 
being determined, we encourage all who are interested in 
learning about the safe delivery of natural gas to visit our 
Web site. Also, it is equally important that all citizens are 
aware of the industry's One-Call safety program, 811 ``call 
before you dig.''
    The natural gas industry spends an estimated $7 billion 
each year in safety-related activities. The design, 
construction, operation, inspection, and maintenance of all 
operating natural gas pipelines are subject to rigorous 
oversight by Federal and State regulators. This includes the 
promulgation of the transmission integrity management rule that 
adds a layer of protection for pipelines in high consequence 
areas in addition to the multitude of periodic inspections/
maintenance performed on all pipelines throughout the system.
    In 2006, Congress passed the PIPES Act, which included four 
core provisions key to enhancing the safety of pipelines 
operated by utilities: First, excavation damage, the single 
greatest threat to distribution system safety and reliability. 
Our combined efforts of regulators, stakeholders, and natural 
gas operators have been successful. Improvements have been 
made. But as you have heard from Mr. Black, more can be done.
    Second, the DOT has promulgated an Integrity Management 
Program for distribution pipelines. Operators have been and 
continue to aggressively write and implement integrity 
management programs to meet the August 2011 implementation 
date. 1,450 operators, 2.1 million miles of pipe, and 70 
million customers will be positively impacted by this rule.
    Third, DOT now requires distribution gas utilities to 
install an excess flow valve on new and replacement service 
lines for single family residences. Millions of EFVs have been 
installed by operators.
    And fourth, DOT has promulgated a regulation for control 
room management which natural gas pipeline operators are 
implementing on an accelerated schedule.
    Finally, on a personal note, gas transmission pipelines run 
through my neighborhood. Therefore, my husband, two children 
and I live in a high consequence area. I can say without 
hesitation that because of the safety--the record of this 
industry and because of the regulations that are in place, I do 
not feel compelled to move because of the tragic incident in 
San Bruno. I do, however, want to know what happened. We all 
want to know what happened so we can consider what appropriate 
actions can be taken to avoid a similar occurrence in 
neighborhoods across the country.
    That is why AGA is committed to working with Congress and 
Federal and State regulators to ensure that natural gas 
distribution and transmission systems continue to be the safest 
and most reliable method, delivering a clean and reliable 
energy source.
    Thank you.
    [The prepared statement of Ms. Traweek follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Welch. Thank you very much for your testimony. We 
appreciate the testimony of all the members of the panel. The 
chair will recognize himself for 5 minutes for a few questions.
    Mr. Wuori, on July 15, 10 days before the spill, near 
Marshall, Michigan, an Enbridge executive testified before the 
Transportation and Infrastructure Committee that the company's 
response time for release incidents can be almost 
instantaneous. It turned out that not only did Enbridge not 
discover the spill, but we understand Enbridge also did not 
report the spill to the National Response Center for nearly 2 
hours after confirming the existence of the leak, nearly 20 
hours after the first pressure alarm, after 10 separate alarms, 
and over 16 hours after people began calling 911 to report oil 
or gas odors.
    So the obvious question is this: How is it possible that it 
took this long for Enbridge to discover and report what was a 
very massive leak?
    Mr. Wuori. Mr. Chairman, the systems that were described by 
Rich Adams in his testimony are the systems that we have 
installed in the company both with regard to the pipeline 
operation and leak detection in the company, and for years we 
have been striving to improve upon those.
    Mr. Welch. The question is, why not the report? The 
discovery in the report. The systems apparently worked to send 
a signal that something was wrong. So the question was, what 
took so long?
    Mr. Wuori. As you know, we are a participating party in the 
NTSB investigation. We have our own investigation underway, and 
all of the timeline events are part of that investigation. And 
I really can't speculate, and it wouldn't be fruitful for me to 
try to draw conclusions too early based on the early data.
    Mr. Welch. So you don't know or you won't say?
    Mr. Wuori. I do not know at this time. We haven't finished 
our investigation. And when we do, we will draw the right 
conclusions, and then we will apply those learnings to the 
system.
    Mr. Welch. Let me ask you this: Were there any alarms or 
other anomalies detected by Enbridge or its employees with 
regard to Line 6B prior to 5:58 Eastern Daylight Time on July 
25, 2010?
    Mr. Wuori. What we do know is that we have an internal 
inspection tool, an inline inspection tool that is in the line. 
And that was in the process of being run prior to the Sunday 
evening. But yet there is nothing that I can speculate on in 
terms of that time frame. We had a lot of communication going 
on between the field and the control center during that period.
    Mr. Welch. The question is simple. 5:58 was the event. Were 
there any alarms or other anomalies that were detected prior to 
5:58? I mean, that is a known answer. There were or there 
weren't, right?
    Mr. Wuori. Yes. I think we heard earlier though from Vice 
Chairman Hart that that is part of the investigation and 
therefore I can't draw conclusions on that either.
    Mr. Welch. That is the point of the question. I am not 
asking you for a conclusion. I am asking you for just a factual 
report as to whether there was an anomaly or an alarm that 
occurred before 5:58.
    Mr. Wuori. I am not aware, Chairman, of any alarms or 
anomalies prior to that time.
    Mr. Welch. And you would know?
    Mr. Wuori. I would not necessarily know every single alarm 
from where I sit, no.
    Mr. Welch. Okay. The chairman yields to the ranking member.
    Mr. Upton. Thank you, Mr. Chairman. I appreciate your 
testimony, all of you. Mr. Black and Ms. Traweek, I appreciated 
your comments as it related to the One-Call. And certainly I 
think those are very good ideas that as we look at the 
reauthorization to take into account, I just wonder, Mr. Black, 
if you might be able to provide our subcommittee with 
information as it relates to municipalities, State agencies, if 
you can identify those which are exempt in some number or State 
so that we can have that as we work with our Members from those 
States to make sure that they can be onboard to really have a 
uniform system that works and so that folks in any community 
will have some sense of order if that call is made. I don't 
know if you can prepare that for us in the next couple of weeks 
or whatever as we look to do this, whether it be in this 
Congress or the next.
    Mr. Black. Last time we looked, 41 States had some kind of 
exemptions from One-Call laws. We got that information from 
NAPSR, National Association of Pipeline Safety Representatives, 
State regulators. Congress has given the DOT the authority to 
eliminate those to determine that exemptions do not meet the 
minimum standard of what an adequate State damage prevention 
plan is. We encourage Congress, when you are considering 
reauthorization, to direct DOT or encourage and persuade them 
to continue on the road that they already appear on, which is 
really pushing the States to eliminate those. If they can't 
successfully get the States to eliminate those, we think DOT, 
with Congress' direction, should weigh in and should do Federal 
damage prevention enforcement in the States, which you have 
already given that authority to do.
    Mr. Upton. Ms. Traweek, do you agree? If any of you have 
information that might be useful for us, I think that would be 
helpful.
    Mr. Wuori, we are all aware of the Department of 
Transportation release, and I am looking at one here. I will 
put it in the record if you haven't seen it, which calls for 
the gradual--the is the headline--gradual restart plan for 
Enbridge Line 6B in Michigan, approved by PHMSA under strict 
oversight. As I understand it, it is expected that this line 
will open on Monday next week. Is that still your assessment?
    Mr. Wuori. That is our current assessment, Congressman. We 
do need final PHMSA approval on the steps that we are now 
taking between last night's approval of the plan and the final 
approval to restart. So we will require their final approval 
before we restart. We have projected Monday the 27th.
    Mr. Upton. Do you know if it is early Monday, late Monday?
    Mr. Wuori. Typically on a line restart, we would do it in 
daylight hours, so it would likely be Monday morning.
    Mr. Upton. The last question that I have, you all are aware 
of the legislation that we are going to be debating yet this 
evening, a bill that I have cosponsored with other Members on 
both sides of the aisle that calls for--the main element of it 
is the requirement that within an hour of knowledge of a mishap 
that that call be made. I would like to know from each of you 
if you support that idea, do you think that it is workable? Yes 
or no is sufficient.
    Mr. Wuori.
    Mr. Wuori. I think the only tradeoff in the 1 hour is the 
accuracy of the volume estimate. When you call the National 
Response Center, you are asked to give a volume estimate for 
good reasons. And typically our policy has been it is a two-
hour time frame in which to develop the volume estimate of any 
spill and also any other conditions that should be reported. 
Shortening it to 1 hour would then require an understanding 
that the volume estimate process may not be as accurate.
    Mr. Upton. Mr. Kessler.
    Mr. Kessler. We do support it, and we understand the 
concerns about the volume estimate reporting and think those 
can be worked through. They are reasonable concerns, but they 
in no way diminish or impact the need or the reasonableness of 
your legislation.
    Mr. Upton. Mr. Santa.
    Mr. Santa. Yes, Mr. Upton, in our comments INGAA noted that 
we would recommend that the time be modified to 2 hours rather 
than 1 hour in order to provide pipeline operators with an 
opportunity to discover whether the alarm is accurate, to 
discover where the release, if it is occurring, is occurring, 
and also note the tradeoff that--there is a cost if it is a 
false alarm and the operator----
    Mr. Upton. That is always good news if it was false. Sorry, 
right?
    Mr. Santa. Well, I would just note that you would be 
notifying first responders and things of that nature. But we 
are not opposing it, but we are recommending that the time 
period be extended to 2 hours. 
    Mr. Black. We are not opposing the bill. We want to help it 
get better; and if it does get better, we can support it. The 
volume reporting process, which is very rigid right now, 
creates a hesitancy for a pipeline. If we can eliminate that--
and I think that we can--then 1 hour works perfectly. As long 
as that 1 hour is applied from the pipelines operator's 
discovery of a release, not a time a pipeline operator should 
have known, we think that issue is going to get resolved well 
either in the legislation or at DOT by a rulemaking.
    Mr. Upton. Ms. Traweek.
    Ms. Traweek. We also are not opposing the legislation. We 
would prefer the 2 hours. But most importantly, we think that 
it is necessary to be able to verify that it is actually an 
incident before that reporting is made. I know it is good news 
to be able to say that it was a false alarm. But there can be 
thousands of calls made that, once checked out, turn out not to 
be an incident at all. And as Mr. Santa suggested, the thought 
of having to bring emergency responders out or to trigger the 
type of responses that you get from that kind of false alarm I 
think would be more negative results of that than positives.
    Mr. Upton. Thank you very much. My time has expired.
    Mr. Welch. I want to thank all the witnesses. And on behalf 
of----
    Mr. Markey. Mr. Chairman.
    Mr. Welch. On behalf of Mr. Markey, I want to say welcome 
back.
    Mr. Markey. Thank you, Mr. Chairman. May I be recognized?
    Mr. Welch. Mr. Upton? Want to vote? Yeah, we vote 
unanimously. We will recognize the chairman.
    Mr. Markey. I thank the gentleman very much.
    Mr. Wuori, in 2007 and 2009, Enbridge inspections on Line 
6B identified nearly 400 corrosion defects that required repair 
under Federal regulations. Both of these inspections also 
identified metal loss in the area of the rupture in Michigan 
but, according to Enbridge, did not have to be repaired under 
Federal regulations.
    How is it that there could be nearly 400 corrosion defects 
on this line that required repair under Federal regulations but 
the defect in the area where the spill occurred did not meet 
the repair criteria?
    Mr. Wuori. Congressman, that is part of our investigation 
and part of the NTSB's investigation in looking at exactly the 
area of the spill and exactly the condition of the pipe there.
    I would add that the indications that you note are the 
result of inline inspection tools that run through the 
pipeline. If you ran a tool through a brand-new pipeline, you 
would get a number of indications. And then those are 
prioritized into a dig program. But the specific indication at 
the site of the spill is part of the investigation as to what 
happened.
    Mr. Markey. Well, you can imagine why observers would be 
suspicious, and I just hope that your answers are good answers 
that you give because it doesn't make any sense on its face.
    Mr. Wuori, Enbridge's Line 6B was constructed in 1969, and 
the pipe was coated in the field using then commonly used 
polyethylene tape. In a May 21, 2009 pipeline integrity 
assessment conducted by Enbridge on its 6B line, it states 
that, quote, The external corrosion pattern may be attributed 
to the tinting of the PE coating.
    Can PE tape lead to corrosion by allowing water to get 
under it.
    Mr. Wuori. Congressman, polyethylene tape was used commonly 
in the 1960s, 1970s and into the early 1980s. One of the issues 
with polyethylene tape-coated pipelines is exactly what you 
describe, and that is tinting of the coating and then the entry 
of water underneath that coating which makes it more difficult 
for the cathodic protection systems to work. As part of the 
pipeline integrity management plan that our company has--and I 
am sure that other companies have also--to run inline 
inspection tools to look for areas where that has had any 
effect.
    Mr. Markey. Was the Enbridge 6A line also coated in PE 
tape?
    Mr. Wuori. Yes. The Line 6A is a polyethylene-coated line.
    Mr. Markey. What percentage of Enbridge's pipelines are 
coated with this tape?
    Mr. Wuori. I don't know that offhand, Congressman. I would 
have to get that number for you.
    Mr. Markey. Mr. Kessler, do you want to comment on this and 
the preexisting knowledge that they have with regard to this 
corrosion pattern that is attributable to the tinting of PE 
tape on pipes?
    Mr. Kessler. I think you have actually stated it quite well 
in terms of its ability to hold water, and it appears to 
promote corrosion in these instances. So I think you are on a 
good track asking these questions at this time.
    Mr. Markey. Do any of the rest of you wish to comment on 
this? Is this sufficient warning that there is a problem and 
that it should be attended to on a systematic basis to ensure 
that this risk is not posed to other pipes across the system?
    Mr. Kessler. I do want to raise--just reiterate the issue 
you raised about the lack of standard over the repairs. I think 
that is an important point, the question of how things can go 
unrepaired or how they actually are repaired and the need for 
clarification and set standards and practices for these things 
under law.
    Mr. Markey. Thank you. Mr. Wuori--and I want to just follow 
up briefly on a question that Mr. Welch asked earlier--don't 
you think that for 20 hours to elapse from the first alarm that 
something might be wrong to the spill actually being reported 
is just too long?
    Mr. Wuori. That is part of the investigation that is 
underway by ourselves and also by the NTSB and other agencies. 
And that timeline, I assure you, is being looked at very 
carefully. We don't want to draw--and I certainly can't draw 
any conclusions this soon into that investigation.
    Mr. Markey. Mr. Kessler, what do you think? Is 20 hours too 
long?
    Mr. Kessler. If that is correct, it is about 19 hours too 
long. And I think Mr. Upton and Mr. Schauer agree with that. It 
raises a real question about standards for leak detection on 
liquid lines and whether they are adequate, whether we should 
be moving to a more modern standard, maybe based--we have 
talked about basing it on the Alaska standard. But something 
that is technologically and economically feasible, but a 
standard. So----
    Mr. Markey. Mr. Santa, do you think 20 hours is too long to 
respond? Is there a circumstance where 20 hours could be an 
acceptable time to elapse?
    Mr. Santa. Mr. Chairman, I am not familiar with the exact 
circumstances of the accident and the reasons that may have 
caused that and really don't feel that I am in a position to 
comment about it for the record.
    Mr. Markey. Mr. Black, do you want to comment on that? Is 
20 hours too long.
    Mr. Black. I don't know the details of their incident. I 
know leaks are difficult to detect in certain situations, like 
small leaks.
    Mr. Markey. Ms. Traweek, you represent the American Gas 
Association.
    Ms. Traweek. Yes.
    Mr. Markey. From the perspective of the American Gas 
Association, do you think that 20 hours is an acceptable amount 
of time that can elapse?
    Ms. Traweek. I think it is critically important to 
understand what the circumstances were, and once those 
circumstances are understood if the response time was 
inadequate, then absolutely they should be held accountable.
    Mr. Markey. The report was 16 hours after the 911 calls 
about odors. It was 4 hours after an Enbridge employee went to 
the pump station three-quarters of a mile from the spill. 
Ultimately Consumers Energy, not Enbridge, did cover this leak. 
As you hear those facts, do you believe that there is any 
excuse for a 20-hour time period to elapse before there is an 
actual, you know, response from Enbridge?
    Mr. Wuori.
    Mr. Wuori. Congressman, nobody wants to know the answers to 
those questions more than we do, and that is why we are 
investigating and the TSB is investigating all of those 
circumstances, including 911 calls prior to.
    Mr. Markey. Well, I am very concerned that this is 
something that, if it is a pattern, is going to lead to 
catastrophic conditions, and if the American Gas Association, 
you know, ultimately accepts this, if there is no credible 
explanation, then it is a cause for concern, that families 
across the country should understand that they could be at 
risk. And I just think that since time is of the essence in 
these responses that the families are there, believing that 
there are protocols in place that ultimately lead to rapid 
responses and they actually don't exist, then that detrimental 
reliance is ultimately going to lead to catastrophic 
conditions, ultimately rumbling through these families lives 
and sending them up on trajectories that will change an entire 
generation of those families, and I just think it is just not 
an acceptable standard and it must be changed.
    Thank you, Mr. Chairman, very much.
    Mr. Welch. I will yield to the gentleman from Massachusetts 
for any closing comments.
    Mr. Markey. I am fine. Thank you.
    Mr. Welch. Well, thank you very much, the panelists. We 
look forward to working with you.
    [Whereupon, at 5:08 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
